audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the City of Peerless Park, Missouri
GR-50-00-005
November 23, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a Universal Hiring Program grant awarded by the Office of Community Oriented Policing Services to the city of Peerless Park, Missouri.  The purpose of the grant was to enhance community policing.  Peerless Park was awarded $75,000 to hire one full-time officer.  Before receiving this award, Peerless Park did not have a paid police force; its police force consisted of a volunteer police officer.

We reviewed the grantee's compliance with seven essential grant conditions and found its practices to be generally acceptable.  However, the grant was terminated in May 1999, 4 months before its expiration date, because Peerless Park was dissolved.  As a result, the unexpended $8,333 will not be used and should be de-obligated and put to better use. 1   In addition, several monitoring reports were erroneous and/or submitted late. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnote

The Inspector General Act of 1988 contains our reporting requirements for funds to better use.  However, not all findings are dollar-related.  See Appendix III for the definition of funds to better use.